Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





GENERIC DRUG UTILIZATION IN 

   THE MEDICARE PART D

         PROGRAM





                    Daniel R. Levinson

                     Inspector General 


                     November 2007

                     OEI-05-07-00130

               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                      S U M M A R Y


                  OBJECTIVE
                  To determine the extent of generic drug utilization in the Medicare
                  Part D program for the first two quarters of 2006.


                  BACKGROUND
                  Effective January 1, 2006, the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003 made qualified
                  prescription drug coverage under Medicare Part D (Part D) available to
                  all individuals entitled to benefits under Medicare Part A or enrolled in
                  Medicare Part B. Beneficiaries generally have the option to enroll in
                  either stand-alone prescription drug plans (PDP) or Medicare
                  Advantage prescription drug plans (MA-PD). Under Part D, plans have
                  broad discretion to design plan benefits and develop their drug
                  utilization management tools.

                  According to the Medicare Board of Trustees, Part D cost the Federal
                  Government $47 billion in 2006. The cost of the Part D prescription
                  drug program for 2006 was lower than the original estimate of
                  $59 billion, and future cost estimates have also been reduced, due in
                  part to greater than anticipated generic drug use. Generic drugs cost,
                  on average, 71 percent less than brand name drugs.

                  Generic drug use is determined by the frequency of generic drug
                  substitution at the pharmacy counter and the prescribing of drugs with
                  no generic drug equivalents. Therefore, in addition to calculating an
                  overall rate of generic drug utilization (i.e., the percentage of all
                  prescriptions that were for generic drugs), this study calculated the
                  following rates that contribute to the overall generic drug utilization
                  rate:
                          1.	 Generic drug substitution rate: the percentage of prescriptions
                              for multisource drugs (generic drugs and brand name drugs that
                              have a generic equivalent) that were dispensed as generics.

                          2.	 Single-source drug-prescribing rate: the percentage of all
                              prescriptions that were written for single-source drugs (drugs
                              that have no generic equivalent).

                  These indicators of generic drug utilization were calculated from
                  341 million prescriptions paid for by Part D plans from January through
                  June 2006.



OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   i
E X E C U T I V E                         S U           M M A R Y 





                   FINDINGS
                   Under Part D, generic drugs were dispensed 88 percent of the time
                   when generic substitutes were available. The generic drug
                   substitution rate measures how often generic drugs were dispensed
                   when generic substitutes were available. For Part D, the overall generic
                   drug substitution rate of 88 percent is similar to the median generic
                   drug substitution rate of 89 percent for State Medicaid programs during
                   2004.

                   Generic drug substitution rates were similar across Part D plans,
                   between MA-PDs and PDPs, and across specific types of MA-PDs.
                   However, Part D plans’ generic drug substitution rates varied widely
                   within certain therapeutic classes (i.e., groups of drugs that treat the
                   same medical condition).
                   Under Part D, 37 percent of prescriptions were written for drugs that
                   have no generic substitutes. Single-source drugs have no generic
                   substitutes. Therefore, the proportion of prescriptions that are written
                   for them (i.e., the single-source drug-prescribing rate) limits Part D
                   plans’ opportunities for generic drug utilization. For Part D, the overall
                   single-source drug-prescribing rate of 37 percent is similar to the
                   median single-source drug-prescribing rate of 41 percent for State
                   Medicaid programs during 2004.

                   Single-source drug-prescribing rates varied across Part D plans, ranging
                   from 14 percent to 59 percent. Single-source drug-prescribing rates
                   were similar between MA-PDs and PDPs but varied across specific
                   types of MA-PDs. Part D plans’ single-source drug-prescribing rates
                   also varied widely within certain therapeutic classes of drugs. For four
                   therapeutic classes—antiulcer/gastrointestinal preparations,
                   cardiovascular preparations, lipotropics, and
                   pyschostimulants/antidepressants—plans’ single-source
                   drug-prescribing rates varied by more than 95 percentage points.
                   Under Part D, 56 percent of all drugs dispensed were generics. The
                   generic drug utilization rate is the percentage of all prescriptions
                   dispensed that were generics. For Part D, the overall generic drug
                   utilization rate of 56 percent is similar to the median generic drug
                   utilization rate of 54 percent for State Medicaid programs during 2004.

                   Generic drug utilization rates varied across Part D plans, ranging from
                   37 percent to 83 percent. Generic drug utilization rates were similar
                   between MA-PDs and PDPs but varied across specific types of MA-PDs.

 OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   ii
E X E C U T I V E                         S U           M M A R Y


                   Variation in the rate of single-source drug prescribing primarily
                   accounted for variation in generic drug utilization. Generic drug
                   utilization was highest in plans for which single-source drug prescribing
                   was lowest; conversely, generic drug utilization was lowest in plans for
                   which single-source drug prescribing was highest.


                   CONCLUSION
                   Overall, Part D achieved a high level of generic drug use during the first
                   two quarters of calendar year 2006 that was similar to the level of
                   generic drug use achieved by State Medicaid programs in 2004. High
                   rates of generic drug use help minimize costs to beneficiaries and keep
                   Part D affordable over the long term.

                   Despite high overall generic drug use, generic drug utilization rates
                   varied among plans. At the low end, one Part D plan achieved only a
                   generic drug utilization rate of 37 percent, while one Part D plan
                   achieved a rate of 83 percent.

                   Variation in generic drug utilization rates is strongly related to
                   variation in single-source drug prescribing, but not to generic drug
                   substitution. In fact, Part D may have already achieved most of the
                   growth in generic drug utilization possible through increasing generic
                   drug substitution.

                   To achieve increases in generic drug utilization, Part D plans may
                   realize greater gains by encouraging the prescribing of multisource
                   drugs because they offer the opportunity to dispense a generic drug. In
                   particular, Part D plans could focus on therapeutic classes that
                   exhibited wide ranges of single-source drug-prescribing rates.

                   Lower single-source drug prescribing could be realized through the
                   inclusion of multisource drugs in a Part D plan’s formulary, educating
                   prescribers, or other means such as drug utilization management tools.
                   However, such efforts must be undertaken with caution to ensure that
                   beneficiaries maintain access to appropriate treatment.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In response to our draft report, the Centers for Medicare & Medicaid
                   Services (CMS) generally concurred with our findings. CMS noted
                   differences between our calculation and CMS’s calculation of generic
                   drug utilization and suggested that differences may be because of CMS’s

 OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   iii
E X E C U T I V E                         S U           M M A R Y


                   inclusion of multisource brand name drugs in its measure of generic
                   drug utilization. CMS also raised questions regarding the period under
                   review and differences in generic drug utilization between MA-PDs and
                   stand-alone PDPs.

                   With respect to the issue of different calculations of generic drug
                   utilization, CMS suggested that we include multisource brand name
                   drug utilization data in our report and stated that including these data
                   would narrow the gap between our and CMS’s calculations of generic
                   drug utilization rates. We did not include multisource brand name drug
                   utilization data in our measure of generic drug utilization because this
                   would be inconsistent with the definition of generic drugs as used in this
                   report. We note that the analysis presented in this report is consistent
                   with previous work on generic drug utilization conducted by the Office
                   of Inspector General.

                   In addition, our calculation of generic drug utilization reflects the
                   current CMS regulatory definition for generic drugs. Pursuant to
                   CMS’s regulations for Part D, a drug is defined as generic or brand
                   depending on the drug application type. Multisource brand name drugs
                   are considered brand name drugs under this definition.




 OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                    Generic drugs were substituted 88 percent of the time . . . . . . . . . 12 


                    Single-source drugs accounted for 37 percent of prescriptions . . . 14 


                    Of all drugs dispensed, 56 percent were generics . . . . . . . . . . . . . 18 



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

                    Agency Comments and Office of Inspector General Response . . . 22 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

                    A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 


                    B: Analysis By Types of Medicare Advantage Plans . . . . . . . . . . 26 


                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent of generic drug utilization in the Medicare
                  Part D program for the first two quarters of 2006.


                  BACKGROUND
                  The Medicare Prescription Drug Benefit
                  Effective January 1, 2006, the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003 (MMA) made qualified
                  prescription drug coverage under Medicare Part D (Part D) available to
                  all individuals entitled to benefits under Medicare Part A or enrolled in
                  Medicare Part B.1 Beneficiaries have the option to enroll in (1) a
                  stand-alone prescription drug plan (PDP) and receive all other Medicare
                  benefits through traditional Medicare fee-for-service, or (2) a Medicare
                  Advantage (MA) plan and receive all Medicare benefits (including drug
                  coverage) through managed care.2
                  The MA plans that offer Part D coverage are referred to as Medicare
                  Advantage prescription drug plans (MA-PD). Some examples of
                  MA plans that offer Part D coverage include Private Fee-For-Service
                  Plans, Health Maintenance Organizations, and Preferred Provider
                  Organizations.

                  Enrollment in PDPs and MA-PDs has risen steadily since the inception
                  of Part D. In January 2006, the Centers for Medicare & Medicaid
                  Services (CMS) reported that over 14 million Medicare beneficiaries had
                  enrolled in PDPs or MA-PDs. By January 2007, enrollment increased to
                  almost 24 million beneficiaries, with over 15 million enrolled in PDPs
                  and over 8 million enrolled in MA-PDs.3
                  Generic Drugs
                  There are three types of drugs: single-source, brand name multisource,
                  and generic. A single-source drug is a brand name drug with no generic
                  drug equivalents. A brand name multisource drug is a brand name
                  drug with generic drug equivalents.



                      1 42 U.S.C. § 1395w-101 (2003). 

                      2 42 U.S.C. § 1395w-101(a) (2003).

                      3 Centers for Medicare & Medicaid Services. “Total Medicare Beneficiaries with Drug

                  Coverage Data” (v.01.16.07). January 17, 2007.



OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   1
I N T R O D        U C T              I O N


                    A generic drug is chemically identical to its brand name counterpart,
                    with the same therapeutic effect and risk-benefit profile. To be
                    approved by the Food and Drug Administration (FDA), a generic drug
                    must contain the same amount(s) of the same active ingredient(s) as the
                    brand name product.4 The generic drug must also be the same strength,
                    be available in the same dosage, have the same route of administration,
                    and have essentially the same labeling as the brand name drug. FDA
                    gives an A rating to a generic drug that it finds to be pharmaceutically
                    and therapeutically equivalent to the drug’s brand name counterpart.
                    Only A-rated generic drugs may be substituted by a pharmacist without
                    permission from the prescribing physician.
                    Part D Expenditures and Potential Savings from Generic Drugs
                    According to the Medicare Board of Trustees, Part D cost the Federal
                    Government $47 billion in 2006. 5 The Medicare Board of Trustees also
                    estimated the cost of Part D, from 2007 to 2016, to be between
                    $823 billion and almost $1 trillion.6
                    The cost of the Part D prescription drug program for 2006 was lower
                    than the original estimate of $59 billion,7 and future cost estimates have
                    also been reduced, due in part to greater than anticipated generic drug
                    use.8 In testimony before the Senate Special Committee on Aging, CMS
                    emphasized the role that generic drugs played in lowering the costs of
                    Part D for the Federal Government.9



                      4 Food and Drug Administration, “What are Generic Drugs?” Available online at
                    http://www.fda.gov/cder/ogd/#Introduction. Accessed on June 12, 2007.
                       5 The Medicare Board of Trustees. “2007 Annual Report of the Boards of Trustees of the
                    Federal Hospital Insurance and Federal Supplementary Medical Insurance Trust Funds” at
                    5. Available online at http://www.cms.hhs.gov/ReportsTrustFunds/. Accessed on May 1,
                    2007.
                        6 Id. at 115.
                        7 The Medicare Board of Trustees. “2006 Annual Report of the Boards of Trustees of the
                    Federal Hospital Insurance and Federal Supplementary Medical Insurance Trust Funds” at
                    22. Available online at http://www.cms.hhs.gov/ReportsTrustFunds/. Accessed on July 27,
                    2007.
                      8 The Medicare Board of Trustees. “2007 Annual Report of the Boards of Trustees of the
                    Federal Hospital Insurance and Federal Supplementary Medical Insurance Trust Funds” at
                    112-113. Available online at http://www.cms.hhs.gov/ReportsTrustFunds/. Accessed on
                    May 1, 2007.
                        9 Testimony of Centers for Medicare & Medicaid Services former Administrator Dr. Mark
                    McClellan before the Senate Special Committee on Aging, September 21, 2006. Available
                    online at http://www.cms.hhs.gov/apps/media/press/testimony.asp?Counter=1971. Accessed
                    on February 6, 2007.



 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   2
I N T R O D        U C T              I O N


                    Generally, generic drugs are cheaper than single-source and brand
                    name multisource drugs. According to the National Association of
                    Chain Drug Stores, in 2005 the average brand name drug prescription
                    cost $101.71, while the average generic drug prescription cost $29.82—a
                    71 percent difference.10
                    Using generic rather than brand name drugs may also reduce
                    beneficiaries’ out-of-pocket costs for premiums, copayments, or
                    coinsurance. Premiums are based on estimates of a number of factors
                    but are primarily driven by the Part D plan’s expected drug costs and
                    drug coverage. In addition, beneficiaries are typically either responsible
                    for a percentage of the cost of their prescription drugs or a set
                    copayment, which may be lower for generic drugs than for brand name
                    drugs.

                    Beneficiaries are responsible for 100 percent of their drug costs in the
                    coverage gap (either out-of-pocket or through supplemental coverage) if
                    they are enrolled in Part D plans that do not provide coverage through
                    the coverage gap. Under the 2006 standard Part D benefit package,
                    once beneficiaries reached $750 in out-of-pocket expenses, standard
                    plans would not cover any portion of the beneficiaries’ drug costs until
                    the beneficiaries spent an additional $2,850 in out-of-pocket expenses.
                    The Kaiser Family Foundation projected that approximately 4 million
                    beneficiaries would incur costs in the coverage gap during 2006.11
                    Given the potential savings for the Federal Government and
                    beneficiaries, Congress and CMS have shown interest in the level of
                    generic drug use under Part D. In January 2007, Congress requested
                    that the Office of Inspector General (OIG) conduct an evaluation to
                    determine the extent of generic drug utilization under Part D.
                    Part D Drug Coverage and Utilization Management
                    Part D plans have broad discretion to design plan benefits and
                    formularies.12 Formularies are one of the main tools that Part D plans
                    can use to drive utilization, including generic drug use. Formularies are
                    a specified set of prescription drugs covered (i.e., paid for) by drug plans.


                      10 National Association of Chain Drug Stores. Available online at
                    http://www.nacds.org/wmspage.cfm?parm1=507. Accessed on January 5, 2007.
                      11 The Henry J. Kaiser Foundation. “Medicare Fact Sheet: The Medicare Prescription
                    Drug Benefit,” November 2006. Available online at
                    http://www.kff.org/medicare/upload/7044-05.pdf. Accessed on June 25, 2007.
                        12 42 U.S.C. § 1395w-111(e)(2)(D) (2003).




 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   3
I N T R O D        U C T              I O N


                    Beneficiaries are responsible for the full cost of drugs not included on
                    their Part D plan’s formulary, unless they apply for and are granted an
                    exception.

                    CMS provides oversight of Part D plans’ formularies to ensure that
                    Part D plan formularies meet legal requirements. Specifically, CMS
                    requires that formularies include at least two drugs in each approved
                    category and class (unless only one drug in a particular category or class
                    is available).13 CMS also required that Part D plans not restrict access
                    to necessary drugs for the first 3 months of Part D (until
                    March 31, 2006). During this transition period, Part D plans were
                    required to provide access to drugs that beneficiaries were previously
                    taking, regardless of whether the drugs were covered under the Part D
                    plan’s formulary. In 2007, during the first 90 days of a beneficiary’s
                    enrollment, plans must provide a one-time supply of drugs that
                    beneficiaries were previously taking that are not on the plan formulary.
                    Open enrollment for 2007 ended December 31, 2006.

                    In addition to formularies, Part D plans can use drug utilization
                    management tools to influence beneficiary drug utilization. The MMA
                    requires each Part D plan to have a drug utilization management
                    program that includes incentives to reduce costs when medically
                    appropriate, such as through the use of generic and brand name
                    multisource drugs.14 Some of the tools employed by Part D plans to
                    increase generic drug use include step therapy, prior authorization for
                    brand name drugs, tiered formularies that charge less expensive
                    copayments for generic drugs, and mandatory generic drug
                    substitution.15
                    In addition, Part D plans encourage generic drug utilization at
                    pharmacies by making prices of generic and brand name drugs available
                    for comparison to beneficiaries. According to the MMA, each Part D
                    plan should ensure that its network pharmacies inform beneficiaries of




                        13 42 CFR § 423.120(b)(2)(i) (2005). 

                        14 42 U.S.C. § 1395w-104(c)(1)(A) (2003). 

                        15 For more information on Part D formulary requirements, refer to the Medicare Part D 

                    Manual, Chapter 6-Part D Drugs and Formulary Requirements. Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDBMChap6FormularyRe
                    qrmts_03.09.07.pdf. Accessed on June 25, 2007.



 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   4
I N T R O D        U C T              I O N


                    the cost differential between the price of the prescribed drug and the
                    lowest cost generic drug equivalent. 16
                    Generic Drug Utilization
                    Generic drug utilization is the result of a physician originally
                    prescribing a generic drug or a pharmacist substituting a generic drug
                    for a brand name multisource drug at the pharmacy. The rate at which
                    these events occur is often referred to as the generic drug dispensing
                    rate or generic usage rate. One industry report shows that generic
                    drugs accounted for 57 percent of all retail drugs dispensed nationally
                    during 2006.17
                    During testimony before the Senate Special Committee on Aging, CMS
                    reported generic drug usage among all Part D plans at 60 percent
                    during the first two quarters of calendar year (CY) 2006.18 CMS also
                    reported on its Web site a generic drug utilization rate of 66 percent for
                    MA-PDs and 57 percent for PDPs.19
                    Generic Drug Substitution
                    Generic drug substitution is only possible when a health care provider
                    prescribes a multisource drug (i.e., a brand name multisource drug or
                    its associated generic equivalent). Generic drug substitution occurs
                    when a physician prescribes the generic version of a multisource drug
                    rather than its brand name equivalent or when a pharmacist receives a
                    prescription for a brand name multisource drug and dispenses the
                    generic version instead.

                    Theoretically, Part D plans should be able to achieve high generic drug
                    substitution rates because generic drugs are chemically and
                    therapeutically equivalent to their brand name multisource
                    counterparts. There are situations in which generic drug substitution is
                    not possible, but these circumstances are rare. For example, a small

                        16 42 U.S.C. § 1395w-104(k)(1)(2003). 

                        17 IMS Health, Available online at 

                    http://imshealth.com/vgn/images/portal/CIT_40000873/25/19/81829004MedicarePartD-
                    TheFirstYear.pdf. Accessed on August 16, 2007.
                      18 Testimony of Centers for Medicare & Medicaid Services former Administrator
                    Dr. Mark McClellan before the Senate Special Committee on Aging, September 21, 2006.
                    Available online at http://www.cms.hhs.gov/apps/media/press/testimony.asp?Counter=1971.
                    Accessed on February 6, 2007.
                        19 Centers for Medicare & Medicaid Services. “Part D Generic Dispensing Rates”
                    (v.02.08.07). Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovGenIn/06_PerformanceData.asp#TopOfPage.
                    Accessed on February 12, 2007.



 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   5
I N T R O D        U C T              I O N


                    percentage of patients may medically require the brand name
                    multisource drug if they are allergic to an inactive ingredient such as a
                    dye or binder found in the generic version. Additionally, disruptions in
                    the supply chain may mean that a pharmacy does not have the generic
                    version of a drug in stock and must dispense the brand name
                    multisource drug.20 Despite these potential barriers, generic drug
                    substitution rates at or above 90 percent have been reported for the
                    private sector.21
                    Generic drug substitution is an attractive option for cost containment,
                    because it can save money without adversely affecting beneficiaries’
                    health. Although generic drug substitution generally achieves savings,
                    it may not save money in all circumstances. Part D plans negotiate
                    with prescription drug manufacturers to obtain rebates or other price
                    concessions for drugs on their formularies. In some instances, a Part D
                    plan may be able to negotiate a lower net price for a brand name
                    multisource drug than for its generic drug equivalent.
                    Single-Source Drug Prescribing
                    The rate at which single-source drugs are prescribed depends on a
                    number of factors. These include prescriber habits, patient demand for
                    newer or highly advertised drugs, and therapeutic advances associated
                    with newer brand name drugs. For some conditions, single-source
                    drugs are the only available treatment. Therefore, the health status
                    and preferences of enrollees may lead to differences across plans in the
                    rates of single-source drug prescribing.
                    Related Office of Inspector General Work
                    In July 2006, OIG determined the extent of generic drug utilization in
                    State Medicaid programs during CY 2004.22 OIG found that State
                    Medicaid programs demonstrated high generic utilization. However,
                    certain therapeutic classes, which categorize drugs according to their
                    most common intended use, showed substantial variation in States’
                    generic drug substitution rates. In addition, this study found a


                        20 Food and Drug Administration. “Drug Shortages.” Available online at
                    http://www.fda.gov/cder/drug/shortages/. Accessed on May 14, 2007.
                        21 Pharmaceutical Care Management Association, “The Generic Drug Maze: Speeding
                    Access to Affordable, Life Saving Drugs,” Testimony of Mark Merrit Before the United
                    States Senate Special Committee on Aging, July 20, 2006.
                        22 Office of Inspector General. “Generic Drug Utilization in State Medicaid Programs”,
                    OEI-05-05-00360, July 2006. Available online at http://www.oig.hhs.gov/oei/reports/oei-05-
                    05-00360.pdf. Accessed on June 25, 2007.



 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   6
I N T R O D        U C T              I O N


                    correlation between single-source drug-prescribing rates and generic
                    drug utilization rates across States.


                    METHODOLOGY
                    Scope
                    This study determines the extent of generic drug use for the Part D
                    program during the first two quarters of CY 2006. It does not analyze
                    the impact of Part D plans’ formularies or utilization management tools
                    on generic drug use. This study also does not determine what generic
                    drug substitution, single-source drug prescribing, or generic drug
                    utilization rates are appropriate. Instead, by calculating different
                    indicators of generic drug use and comparing Part D plans to one
                    another, this study explores potential avenues for increasing generic
                    drug use.
                    Data Sources
                    To conduct this study, we used Prescription Drug Event (PDE) data and
                    First DataBank product information. Part D plans submit PDE data to
                    CMS. Each event included in the PDE data represents a claim for the
                    dispensing of a drug or medical supply.23 These data contain FDA’s
                    National Drug Code (NDC), a three-part universal identifier that
                    specifies the drug’s manufacturer, name, dosage form, strength, and
                    package size. The PDE data also include whether the drug is covered
                    under the standard Part D benefit, whether the drug is an
                    over-the-counter drug, prescriber information, and where the
                    prescription was dispensed.

                    First DataBank is a third-party provider of drug pricing and product
                    information. Among other things, it provides information by the NDC,
                    the drug name, standard therapeutic class, and whether the drug is a
                    single-source drug, a brand name multisource drug, or a generic drug.
                    Data Collection
                    We collected all PDE data submitted by Part D plans from
                    January 2006 through March 2007. Part D plans could submit PDE
                    data for CY 2006 through the end of June of 2007. By collecting all PDE
                    data for this period, we increased the likelihood that we captured a



                       23 Medical supplies allowable under Part D include those associated with the injection of
                    insulin.



 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   7
I N T R O D        U C T              I O N


                    substantial majority of all PDE data for the first two quarters of
                    CY 2006.
                    Data Analysis
                    Our analysis included those PDE data with a date of service between
                    January 1 and June 30, 2006. This resulted in 404 million events from
                    547 Part D plans.

                    We merged the 404 million events with the First DataBank drug
                    product information to obtain additional information about the
                    dispensed drug. To improve the accuracy of our calculations, we
                    removed events that could affect our analysis. For example, we
                    removed PDE claims for medical supplies, for nonprescription drugs,
                    and multiple submissions for the same dispensing event. This process
                    left 341 million events (84 percent of the total submissions) from
                    528 Part D plans (97 percent of plans) in our analysis. See Table 1 for
                    the number of plans and claims for MA-PDs, PDPs, and
                    Employer/Union Contract PDPs. See Appendix A for additional
                    methodology and information on the types and number of claims
                    removed.

                        Table 1: Number of Plans and Claims for MA-PDs,
                        PDPs, and Employer/Union Contract PDPs


                                                                     Number of Plans                           Number of Claims

                       MA-PD                                                                437                      79,366,113

                       PDP                                                                    83                    260,224,786

                       Employer/Union
                                                                                                8                     1,544,259
                       Contract PDP
                       Total                                                                528                     341,135,158

                    Source: OIG analysis of January-June 2006 PDE data, 2007.


                    For Part D in the aggregate and for each specific Part D plan, we
                    calculated the generic drug utilization rate, as well as two indicators
                    that contribute to overall generic drug utilization: the generic drug
                    substitution rate and the single-source drug-prescribing rate. We then
                    determined the median across plans for each rate.

                    We also calculated each Part D plans’ generic drug substitution rate and
                    single-source drug-prescribing rate for the 10 standard therapeutic
                    classes with the most claims. We used the generic sequence number


 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                  8
I N T R O D        U C T              I O N


                    associated with each NDC to determine the therapeutic class for each
                    NDC.24
                    To determine whether generic drug use was affected during the
                    transition period by the requirement for Part D plans to provide
                    beneficiaries’ access to drugs they were previously taking, we calculated
                    and compared the overall generic drug utilization rate by month for
                    each of the 6 months.

                    Generic Drug Substitution Rate. To determine the generic drug
                    substitution rate, we divided the total of all FDA A-rated generic drug
                    prescriptions by the total of multisource prescriptions (both brand name
                    multisource and FDA A-rated generic). We only considered generic
                    drugs with an FDA A-rating as substitutable.


                                                                 Generic Drug Substitution Rate
                                                          FDA A-Rated Generic Drug Prescriptions
                                         Multisource Drug Prescriptions (Brand Name Multisource
                                                     + FDA A-Rated Generic Drugs)


                    Single-Source Drug-Prescribing Rate. We calculated the single-source
                    drug-prescribing rate by dividing the total of all single-source drug
                    prescriptions by the total of all prescriptions. The single-source
                    drug-prescribing rate is useful because it inherently limits the rate at
                    which generic drugs can be dispensed.

                                                         Single-Source Drug-Prescribing Rate
                                                                   Single-Source Drug Prescriptions
                                 All Drug Prescriptions (Single-Source + Brand Name Multisource
                                                         + Generic Drugs)



                    Generic Drug Utilization Rate. We calculated the generic drug utilization
                    rate by dividing the total number of generic drug prescriptions by the
                    total of all prescriptions. This is also called the generic dispensing or
                    generic usage rate.

                        24 In the First DataBank product data, the generic sequence number represents a generic
                    drug formulation identifier that groups drug products by the set of ingredients, route of
                    administration, dosage form, and strength of the drug.



 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   9
I N T R O D        U C T              I O N 




                                                                  Generic Drug Utilization Rate
                                                                          Generic Drug Prescriptions
                                 All Drug Prescriptions (Single-Source + Brand Name Multisource
                                                         + Generic Drugs)



                    CMS calculates a generic drug utilization rate that is not directly
                    comparable to the generic drug utilization rate presented in this report.
                    CMS also calculates generic drug utilization rates for Part D plans
                    using data different from those used in this report. CMS bases its
                    calculations on aggregate utilization data reported by each plan on a
                    quarterly basis,25 reflecting a snapshot of claims available to Part D
                    plans at the time of their submission. The rates in this report are
                    calculated using data from January through June 2006, which were
                    submitted during a 15-month period. In addition, plans have the option
                    of using different methodologies to identify generic and brand name
                    drugs.26 Plans do not specify the methodology they use in reporting
                    their generic drug utilization.

                    Comparing Plans’ Generic Drug Use. Using the three rates we calculated
                    for each Part D plan, we compared generic drug use across Part D plans.
                    In addition, we analyzed and compared the rates for all MA-PD plans as
                    a group to the rates for all PDP plans as a group.

                    We further analyzed MA-PD generic drug use to detect any differences
                    among the different types of plans categorized as MA-PDs. See
                    Appendix B for a full list of MA-PD plans.

                    Comparing Part D Generic Drug Use to Medicaid Generic Drug Use. As a
                    benchmark for the generic drug use rates that we found under Part D, we
                    compared median plan rates under Part D to median rates among State
                    Medicaid programs. For purposes of the comparison to Medicaid, we used
                    the previous OIG analysis of generic drug use rates under Medicaid during
                    CY 2004. The CY 2004 Medicaid data included prescription drug
                    utilization data for dual eligible beneficiaries. Most of the 6 million dual


                        25 Part D plans are responsible for reporting these data using definitions of generic and
                    brand name drugs pursuant to 42 CFR § 423.4.
                        26 Pursuant to the January 25, 2006, Medicare Part D Reporting Requirements, Part D
                    plans were to use First DataBank or Medispan generic drug classifications to identify
                    generic drugs.



 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   10
I N T R O D        U C T              I O N


                    eligibles who received prescription drug coverage under Medicaid in
                    CY 2004 now receive their coverage under Part D.
                    Data Limitations
                    Because CMS policy allowed Part D plans to submit PDE data for
                    CY 2006 through June 2007, our analysis may lack some claims from
                    the first two quarters of CY 2006. However, there is no evidence to
                    suggest that any outstanding PDE data are significantly weighted
                    toward generic or single-source drugs.

                    Because of enrollment errors, some plans paid for prescription drugs for
                    beneficiaries enrolled in other plans. Although our data reflect these
                    payment errors, they accurately reflect the drugs dispensed, which are
                    determined by the formulary of the plan that paid for the prescription
                    drug claims. For an analysis of generic drug use, the significant factor
                    is the type of drug allowed under the plans’ formularies and not which
                    plan paid for the drug.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   11
Δ       F I N D I N G S

   Under Part D, generic drugs were dispensed              The generic drug substitution rate
88 percent of the time when generic substitutes            measures how often generic drugs
                                were available             are dispensed when generic
                                                           substitutes are available. For
                      Part D, the overall generic drug substitution rate was 88 percent during
                      the first two quarters of CY 2006. The median generic drug substitution
                      rate by Part D plans was 89 percent.

                      Consistent with this analysis, a previous OIG study found that State
                      Medicaid programs had a median generic drug substitution rate of
                      89 percent during 2004. Generic drug substitution rates at or above
                      90 percent have been achieved outside of Medicare and Medicaid.27
                      Generic drug substitution rates were similar across Part D plans
                      Most Part D plans’ generic drug substitution rates were clustered
                      tightly around the median Part D plan rate of 89 percent. Of the
                      528 Part D plans analyzed, 468 had generic drug substitution rates
                      within 5 percentage points of the median Part D plan rate of 89 percent.
                      The overall range for plans’ generic drug substitution rates was
                      70 percent to 98 percent. See Table 2 for more details on Part D plan
                      generic drug substitution rates.



                          Table 2: Generic Drug Substitution Rates Across Part D Plans During
                          the First Two Quarters of CY 2006
                                                                                                                           Range of Plan Generic
                                 Median Plan                             Lowest Plan                      Highest Plan       Drug Substitution
                                Generic Drug                            Generic Drug                     Generic Drug       Rates in the Middle
                             Substitution Rate                       Substitution Rate                Substitution Rate     50 Percent of Plans
                                                     89%                                  70%                        98%              87%-90%

                      Source: OIG analysis of January-June 2006 PDE data, 2007.



                      Median generic drug substitution rates were similar between MA-PDs and
                      PDPs and across types of MA-PDs
                      The median plan generic drug substitution rates for MA-PDs, as a
                      group, and PDPs were similar. The median generic drug substitution
                      rate for MA-PDs was 89 percent; it was 87 percent for PDPs.



                          27 Pharmaceutical Care Management Association, “The Generic Drug Maze: Speeding
                      Access to Affordable, Life Saving Drugs,” Testimony of Mark Merrit Before the United
                      States Senate Special Committee on Aging, July 20, 2006.



    OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                         12
F   I N D I N G                S


                             See Table 3 for more details on MA-PD and PDP generic drug
                             substitution rates.



          Table 3: Generic Drug Substitution Rates for MA-PDs and PDPs During the First
          Two Quarters of CY 2006
                                                                                                                                   Range of Plan Generic
                                        Median Plan                             Lowest Plan                      Highest Plan        Drug Substitution
                                       Generic Drug                            Generic Drug                     Generic Drug        Rates in the Middle
                                    Substitution Rate                       Substitution Rate                Substitution Rate      50 Percent of Plans

          MA-PD                                             89%                                74%*                         98%               87%-91%

          PDP                                               87%                                70%*                         93%*              86%-89%

          * The MA-PD with the lowest generic drug substitution rate had less than 100 claims. The PDP with the lowest
          generic drug substitution rate had less than 200 claims. The PDP with the highest generic drug substitution rate
          had less than 400 claims.
        Source: OIG analysis of January-June 2006 PDE data, 2007.




                             An analysis by MA-PD plan types also shows minimal variation across
                             generic drug substitution rates, ranging from 87 percent to 91 percent.
                             See Appendix B for a breakout of generic drug substitution rates by
                             MA-PD type.
                             Generic drug substitution rates varied widely within therapeutic classes of
                             drugs
                             Eight of the top 10 therapeutic classes had a 50 or greater percentage
                             point difference between the lowest and highest rates. Among the
                             10 classes of drugs we reviewed, the therapeutic class with the smallest
                             variation between the lowest and highest plan rates, diuretics, still had
                             a 25 percentage point range.

                             In each of the top 10 therapeutic classes we reviewed, at least
                             two Part D plans achieved generic drug substitution rates of
                             100 percent. In fact, 159 plans achieved rates of 100 percent in one or
                             more of these therapeutic classes. However, in each therapeutic class
                             some Part D plans achieved much lower rates of generic drug
                             substitution. In two therapeutic classes, thyroid preparations and
                             anticoagulants, the ranges between the Part D plan with the lowest
                             generic drug substitution rate and the Part D plan with the highest rate
                             were 99 and 86 percentage points, respectively. Given that several
                             Part D plans achieved 100 percent generic drug substitution rates in
                             each of the 10 therapeutic classes, opportunities may exist for other
                             Part D plans to increase their rates of generic drug substitution.


    OEI-05-07-00130          G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                           13
  F   I N D I N G                 S


                                Table 4 presents information on the generic drug substitution rates
                                across Part D plans for the 10 most dispensed therapeutic classes.


  Table 4: Generic Drug Substitution Rates for Selected Therapeutic Classes During the First
  Two Quarters of CY 2006
                                       Median Plan                      Minimum                     Maximum
                                          Generic                    Plan Generic               Plan Generic                Percentage Point
                                              Drug                          Drug                       Drug               Difference Between
                                       Substitution                  Substitution               Substitution                    Minimum and
  Therapeutic Class                           Rate                          Rate                        Rate              Maximum Plan Rate    Total Claims

  Thyroid preparations                                 72%                            1%*                   100%                       99%      9,457,235

  Anticoagulants                                       96%                        14%                       100%                       86%     10,977,071

  Lipotropics                                          97%                        29%                       100%                       71%     24,103,932

  Diabetic therapy                                     77%                        33%                       100%                       67%     21,196,162

  Cardiovascular
                                                       81%                        34%                       100%                       66%     35,225,704
  preparations
  Psychostimulants-
                                                       93%                        43%                       100%                       57%     20,462,115
  Antidepressants
  Narcotic analgesics                                  96%                        48%                       100%                       52%     17,275,975

  Antiulcer/gastrointestinal
                                                       99%                        50%                       100%                       50%     14,543,189
  preparations
  Hypotensives                                         93%                        68%                       100%                       32%     33,061,444

  Diuretics                                            98%                        75%                       100%                       25%     19,353,082

  * The plan with the lowest generic drug substitution rate appears to be an outlier. The generic drug substitution rate for the
  plan with the next lowest rate is 12 percent.
Source: OIG analysis of January-June 2006 PDE data, 2007.




                                                                     Single-source drugs have no
  Under Part D, 37 percent of prescriptions were
                                                                     generic drug substitutes. For
          written for drugs that have no generic                     Part D, single-source drugs
                                     substitutes                     comprised 37 percent of all
                                                                     prescriptions filled during the first
                                two quarters of CY 2006. When a single-source drug is prescribed, a
                                generic drug cannot be dispensed. Thus, for this 37 percent of
                                prescriptions, there was no opportunity to dispense a generic drug. The
                                median rate by Part D plan was 35 percent.

                                In comparison, OIG previously found that State Medicaid programs had
                                a median single-source drug-prescribing rate of 41 percent during
                                CY 2004.

      OEI-05-07-00130           G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                          14
F   I N D I N G           S


                        Single-source drug-prescribing rates varied widely across Part D plans
                        Part D plans’ single-source drug-prescribing rates varied, ranging from
                        14 percent to 59 percent. For five Part D plans, single-source drugs
                        were prescribed 50 percent of the time or more. These Part D plans
                        were more limited than others in their opportunities to dispense generic
                        drugs. See Table 5 for more details on Part D plans’ single-source
                        drug-prescribing rates.


                         Table 5: Single-Source Drug-Prescribing Rates Across Part D Plans During
                         the First Two Quarters of CY 2006
                                Median Plan                               Lowest Plan                     Highest Plan        Range of Plan Single-Source
                              Single-Source                             Single-Source                   Single-Source          Drug-Prescribing Rates in
                           Drug-Prescribing                          Drug-Prescribing                Drug-Prescribing           the Middle 50 Percent of
                                       Rate                                      Rate                             Rate                              Plans
                                                   35%                                  14%                            59%*                    31%-39%

                        * The plan with the highest single-source drug-prescribing rate had very low enrollment and less
                        than 50 claims.
                      Source: OIG analysis of January-June 2006 PDE data, 2007.



                        Median single-source drug-prescribing rates were similar between MA-PDs
                        and PDPs but varied across types of MA-PDs
                        When comparing MA-PDs to PDPs, median single-source
                        drug-prescribing rates were similar. The median single-source
                        drug-prescribing rate for MA-PDs was 34 percent, only 5 percentage
                        points lower than the median PDP rate of 39 percent. However, specific
                        MA-PDs achieved lower single-source drug-prescribing rates than
                        PDPs. Forty-nine MA-PDs were able to limit their single-source
                        drug-prescribing rates to 25 percent or below. No PDP had a
                        single-source drug-prescribing rate below 27 percent. On the other
                        hand, a similar number of MA-PDs (two) and PDPs (three) had rates at
                        or above 50 percent. See Table 6 on the following page for more details
                        on MA-PD and PDP single-source drug-prescribing rates.




    OEI-05-07-00130     G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                              15
F   I N D I N G                S           





        Table 6: Single-Source Drug-Prescribing Rates for MA-PDs and PDPs During the First
        Two Quarters of CY 2006
                                                                                                                                               Range of Plan
                                  Median Plan                            Lowest Plan                        Highest Plan                     Single-Source
                                Single-Source                          Single-Source                      Single-Source             Drug-Prescribing Rates
                             Drug-Prescribing                       Drug-Prescribing                   Drug-Prescribing            in the Middle 50 Percent
                                         Rate                                   Rate                                Rate                           of Plans

        MA-PD                                       34%                                   14%                               53%                   29%-37%

        PDP                                         39%                                   27%                               59%*                  37%-41%

        * The PDP with the highest single-source drug-prescribing rate had very low enrollment and less than 50 claim
        submissions.
      Source: OIG analysis of January-June 2006 PDE data, 2007.




                             When comparing rates across specific types of MA-PDs, median
                             single-source prescribing rates showed variation. The lowest median
                             single-source prescribing rate by plan type was 27 percent, while the
                             highest median by plan type was 41 percent. See Appendix B for a
                             breakout of single-source prescribing rates by MA-PD plan type.
                             Single-source drug-prescribing rates varied widely within therapeutic
                             classes of drugs
                             Part D plan single-source drug-prescribing rates varied widely within
                             9 of the top 10 therapeutic classes that we reviewed. The range of
                             single-source drug-prescribing rates within these therapeutic classes
                             was most pronounced in two classes: antiulcer/gastrointestinal
                             preparations and cardiovascular preparations. Part D plans’
                             single-source drug-prescribing rates in these two therapeutic classes
                             varied by 99.5 and 99 percentage points, respectively.

                             In fact, within five therapeutic classes, some Part D plans had no
                             opportunity for generic drug utilization because they had single-source
                             drug-prescribing rates of 100 percent. On the other hand, within all
                             therapeutic classes, at least one Part D plan was able to limit
                             single-source drug prescribing to 14 percent or below. The ability of
                             some plans to attain low single-source drug-prescribing rates in all
                             10 therapeutic classes indicates that each therapeutic class had
                             multisource drugs available. The wide variation within each
                             therapeutic class suggests that Part D plans may have the opportunity
                             to decrease single-source drug prescribing and increase their rates of
                             generic drug utilization.


    OEI-05-07-00130          G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                                 16
  F    I N D I N G                S


                                Table 7 presents information on the single-source drug-prescribing rates
                                for the 10 most dispensed therapeutic classes.



  Table 7: Single-Source Drug-Prescribing Rates for Selected Therapeutic Classes During the First
  2 Quarters of CY 2006
                                                                                                                                             Percentage
                                                                                                                                                   Point
                                                                                                                                              Difference
                                               Median Plan                              Minimum Plan                       Maximum Plan        Between
                                             Single-Source                               Single-Source                    Single-Source    Minimum and
                                          Drug-Prescribing                            Drug-Prescribing                 Drug-Prescribing   Maximum Plan
 Therapeutic Class                                    Rate                                        Rate                             Rate             Rate        Total Claims
 Antiulcer/gastrointestinal
                                                                  53%                                 0.48%                      100%            99.5%          14,543,189
 preparations
 Cardiovascular
                                                                  23%                                      1%                    100%*             99%          35,225,704
 preparations
 Lipotropics                                                      80%                                      4%                    100%              96%          24,103,932

 Psychostimulants-
                                                                  37%                                      4%                    100%              96%          20,462,115
 Antidepressants
 Anticoagulants                                                   50%                                    14%                     100%              86%          10,977,071

 Hypotensives                                                     30%                                      2%                      75%             73%          33,061,444

 Diabetic Therapy                                                 32%                                      4%                      64%             60%          21,196,162

 Narcotic analgesics                                                1%                                0.01%                        60%             60%          17,275,975

 Thyroid preparations                                          0.42%                                  0.01%                        29%             29%           9,457,235

 Diuretics                                                     0.41%                                  0.01%                         4%              4%          19,353,082

 *The plan with the highest single-source drug-prescribing rate in this class had low enrollment and few claims. The next highest plan
 single-source drug-prescribing rate was 50 percent.
Source: OIG analysis of January-June 2006 PDE data, 2007.




      OEI-05-07-00130           G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                               17
F   I N D I N G         S           



                                                              The generic drug utilization rate
Under Part D, 56 percent of all drugs dispensed
                                                              is the percentage of all
                                   were generics              prescriptions dispensed that were
                      generic drugs regardless of whether generic drugs were available. The
                      overall generic drug utilization rate for Part D was 56 percent during
                      the first two quarters of CY 2006. The overall generic drug utilization
                      rate was consistent from month to month during these 6 months under
                      Part D, including during the initial transition period from January
                      through the end of March 2006. The median generic drug utilization
                      rate by Part D plan was 58 percent.

                      In comparison, a previous OIG study found that State Medicaid
                      programs had a median generic drug utilization rate of 54 percent
                      during CY 2004. Moreover, one recent industry report shows that
                      generic drugs accounted for 57 percent of all retail drugs dispensed
                      nationally during 2006.28
                      Generic drug utilization rates varied widely across Part D plans
                      Part D plans’ rates of generic drug utilization varied substantially from
                      the median plan rate of 58 percent. The lowest Part D plan generic
                      drug utilization rate was 37 percent, while the highest was 83 percent.
                      Eleven Part D plans were able to achieve generic drug utilization rates
                      at or above 75 percent. On the other hand, three Part D plans had
                      generic drug utilization rates at or below 40 percent. See Table 8 for
                      more details on Part D plan generic drug utilization rates.



                            Table 8: Generic Drug Utilization Across Part D Plans During the First
                            Two Quarters of CY 2006
                                                                                                                               Range of Plan Generic
                                Median Plan                             Lowest Plan                      Highest Plan      Drug Utilization Rates in
                               Generic Drug                            Generic Drug                     Generic Drug       the Middle 50 Percent of
                             Utilization Rate                        Utilization Rate                 Utilization Rate                        Plans
                                                 58%                                  37%                            83%                  53%-62%

                      Source: OIG analysis of January-June 2006 PDE data, 2007.




                          28 IMS Health, Available online at
                      http://imshealth.com/vgn/images/portal/CIT_40000873/25/19/81829004MedicarePartD-
                      TheFirstYear.pdf. Accessed on August 16, 2007.



    OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                             18
F   I N D I N G                 S


                              Median generic drug utilization rates were similar between MA-PDs and
                              PDPs but varied across types of MA-PDs
                              When comparing MA-PDs, as a group, and PDPs, rates of generic
                              drug use were similar. The median generic drug utilization rate for
                              MA-PDs was 59 percent, only 6 percentage points higher than the
                              median PDP plan rate of 53 percent. Specific MA-PDs were able to
                              achieve higher generic drug utilization rates than PDPs. Thirty
                              MA-PDs had generic drug utilization rates above 70 percent. The
                              highest generic utilization rate for a PDP was 68 percent. See Table 9
                              for more details on MA-PD and PDP generic drug utilization rates.



                        Table 9: Generic Drug Utilization Rates for MA-PDs and PDPs During the
                        First Two Quarters of CY 2006
                                                                                                                                                 Range of Plan
                                                              Median Plan                   Lowest Plan                                         Generic Drug
                                                             Generic Drug                  Generic Drug                  Highest Plan     Utilization Rates in
                                                               Utilization                    Utilization               Generic Drug                the Middle
                                                                     Rate                           Rate              Utilization Rate   50 Percent of Plans

                        MA-PD                                                 59%                        37%                     83%                55%-64%

                        PDP                                                   53%                        38%                     68%                51%-56%

                      Source: OIG analysis of January-June 2006 PDE data, 2007.




                              An analysis of MA-PD plan types shows variation across the median
                              generic drug utilization rates, ranging from 51 percent to 66 percent.
                              See Appendix B for a breakout of generic drug utilization rates by
                              MA-PD plan type.
                              Variation in generic drug utilization was primarily explained by variation in
                              single-source drug prescribing
                              Generic drug utilization is affected by both generic drug substitution
                              and by single-source drug prescribing. However, the relationship
                              between generic drug substitution and generic drug utilization rates
                              does not explain variation across Part D plans’ generic drug utilization
                              rates. Although generic drug substitution rates remained consistent
                              across Part D plans, generic drug utilization rates varied widely from
                              plan to plan. For example, 178 Part D plans had generic drug
                              substitution rates of at least 90 percent but their generic drug
                              utilization rates ranged between 38 percent and 83 percent.

                              On the other hand, there is a strong relationship between single-source
                              drug prescribing and generic drug utilization. Our analysis shows that

    OEI-05-07-00130           G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                               19
F                              I N D I N G                 S           



                                                         generic drug utilization was highest in Part D plans for which
                                                         single-source drug prescribing was lowest. Of all 528 Part D plans
                                                         reviewed, the Part D plan with the highest generic drug utilization rate
                                                         (83 percent) also had the lowest single-source drug-prescribing rate
                                                         (14 percent). Conversely, the Part D plan with the second lowest
                                                         generic drug utilization rate (38 percent) had the highest single-source
                                                         drug-prescribing rate (59 percent).

                                                         Chart 1 displays the relationship between Part D plans’ generic drug
                                                         utilization rates and single-source drug-prescribing rates under Part D
                                                         for the first two quarters of CY 2006.

CHART 1: Part D Plans’ Generic Drug Utilization Rates Versus Single-Source
Drug-Prescribing Rates During the First Two Quarters of CY 2006
                                            90.00%




                                            80.00%
    Plans' Generic Drug Utilization Rates




                                            70.00%




                                            60.00%




                                            50.00%




                                            40.00%


                                                                                                                                                   2
                                                                                                                                                 R = 0.956

                                            30.00%





                                            20.00%
                                                 5.00%   15.00%                      25.00%                       35.00%                   45.00%             55.00%   65.00%

                                                                           Plans' Single Source Drug-Prescribing Rates
Source: OIG analysis of January-June 2006 PDE data, 2007




                                                         This relationship between single-source drug prescribing and generic
                                                         drug utilization also held true when analyzing across MA-PD plan
                                                         types. Within each MA-PD plan type, generic drug utilization was
                                                         highest where single-source drug prescribing was lowest. This
                                                         relationship is also true when analyzing across PDPs.


                    OEI-05-07-00130                      G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                           20
E X E C U T I V E                         S U           M M A R Y
Δ    C O N C L U S I O N




                   Overall, Part D achieved a level of generic drug use during the first
                   two quarters of CY 2006 that was similar to the level of generic drug use
                   achieved by State Medicaid programs in 2004. High rates of generic
                   drug use help reduce costs to beneficiaries and keep Part D affordable
                   over the long term.

                   Despite high generic drug use overall, generic drug utilization rates
                   varied among plans. At the low end, one Part D plan achieved a generic
                   drug utilization rate of 37 percent, while another Part D plan achieved a
                   rate of 83 percent. Variation in median generic drug utilization rates
                   also occurred across different types of MA-PDs.

                   Variation in generic drug utilization rates appears to be a function of
                   single-source drug prescribing and not generic drug substitution. In
                   fact, the high levels of generic drug substitution that we found for most
                   Part D plans suggest that Part D may have already achieved most of the
                   growth in generic drug utilization possible through increasing generic
                   drug substitution. Still, Part D plans with generic drug substitution
                   rates below the median may wish to consider taking additional
                   measures to increase generic drug substitution. Further, certain
                   therapeutic classes show substantial variation in Part D plans’ generic
                   drug substitution rates and, thus, greater potential gains for plans with
                   lower rates in those classes.

                   To achieve increases in generic drug utilization, Part D plans may
                   realize greater gains by encouraging the prescribing of brand name
                   multisource drugs which have generic equivalents. It is important to
                   recognize that single-source drug prescribing caps the level of generic
                   drug utilization attainable. In particular, Part D plans could focus on
                   therapeutic classes with wide ranges of single-source drug-prescribing
                   rates. For four classes—antiulcer/gastrointestinal preparations,
                   cardiovascular preparations, lipotropics, and pyschostimulants/
                   antidepressants—plans’ single-source drug-prescribing rates differed by
                   more than 95 percentage points.

                   Lower single-source drug prescribing could be realized through the
                   inclusion of multisource drugs in a Part D plan’s formulary, educating
                   prescribers, or other means such as drug utilization management tools.
                   However, such efforts must be undertaken with caution to ensure that
                   beneficiaries maintain access to appropriate treatment.



 OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   21
C O   N C L        U S I O             N            




                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     In response to our draft report, CMS generally concurred with our
                     findings. CMS noted differences between our calculation and CMS’s
                     calculation of generic drug utilization and suggested that differences
                     may be because of CMS’s inclusion of multisource brand name drugs in
                     its measure of generic drug utilization. CMS also raised questions
                     regarding the period under review and differences in generic drug
                     utilization between MA-PDs and stand-alone PDPs.

                     With respect to the issue of different calculations of generic drug
                     utilization, CMS suggested that we include multisource brand name
                     drug utilization data in our report and stated that including these data
                     would narrow the gap between our and CMS’s calculation of generic
                     drug utilization rates. We did not include multisource brand name drug
                     utilization data in our measure of generic drug utilization because this
                     would be inconsistent with the definition of generic drugs as used in this
                     report. We note that the analysis presented in this report is consistent
                     with previous work on generic drug utilization conducted by OIG.

                     In addition, our calculation of generic drug utilization reflects the
                     current CMS regulatory definition for generic drugs. Pursuant to
                     42 CFR § 423.4, a drug is defined for the purposes of Part D as generic
                     or brand depending on the drug application type. Multisource brand
                     name drugs are considered brand name drugs under this definition.

                     The full text of CMS’s comments is included in Appendix C.




 OEI-05-07-00130     G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   22
Δ      A P P E N D I X ~ A


                  DETAILED METHODOLOGY
                  Associating Part D Plans With Their Prescription Drug Event Drug Claims
                  To determine the Part D plan associated with the Prescription Drug
                  Event (PDE) drug claims, we used the contract number for the plan that
                  submitted the claim, not the contract number for the plan of record. We
                  used the contract number for the plan submitting the claim because it
                  identifies the plan that allowed and paid for the prescription drug claim
                  according to its formulary requirements. The plan of record reflects the
                  plan in which the beneficiary was enrolled, which should be the same as
                  the plan submitting the claim. In some cases, plans paid for
                  prescription claims for beneficiaries enrolled in other plans because of
                  out-of-date enrollment data. In such a case, the plan of record repays
                  any plan that mistakenly paid for drugs dispensed to their enrollees.
                  Steps To Ensure the Reliability of PDE Data
                  To ensure the accuracy and reliability of our generic drug use
                  calculations, our analysis included several steps to remove PDE drug
                  claims that could affect our calculation of the three indicators of generic
                  use. After completing these steps, 341 million claims (84 percent of the
                  overall claims) from 528 Medicare Part D plans remained for the
                  analysis. Refer to Table 10 on page 25 for a summary of the types of
                  claims removed.

                  These steps ensured the following:

                  •	      One claim for each dispensed prescription drug in the PDE data was
                          analyzed. Part D plans have the ability to adjust claims within PDE
                          data. A Part D plan can also delete a claim from PDE data. This
                          study includes an analysis only of the last adjusted claim and omits
                          all earlier claims that were adjusted and all deleted claims
                          submissions. We removed the adjusted and deleted claims using a
                          process similar to one used by the Centers for Medicare & Medicaid
                          Services (CMS). We removed 52,438,619 claims during this step.

                  •	      Over-the-counter drugs and drugs covered under supplemental
                          benefits, which are drugs not covered as Part D drugs, were not
                          included in the analysis. We removed 2,967,749 claims during this
                          step.

                  •	      No medical supply claims (e.g., diabetic supplies) were analyzed
                          because they are not prescription drugs. We removed 19,555 claims
                          during this step.

OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   23
A   P   P E N D       I X             ~           A


                      •	      No drug claims that were listed as partial fills or complete fills were
                              analyzed because they create the potential for overstating the
                              number of prescriptions. We removed 175,999 claims during this
                              step.

                      •	      No drugs without product information from First DataBank or CMS
                              were analyzed. Without product information from First DataBank
                              or CMS, we were unable to determine the therapeutic class of the
                              drug, whether the drug was a brand name or generic drug, and
                              whether there were generic equivalents to the drug. We removed
                              2,511,589 claims during this step.
                      •	      No drug claims that were submitted to multiple plans on behalf of
                              the same beneficiaries for the same day were analyzed. Because of
                              the potential for misrepresenting utilization, all claims from these
                              beneficiaries were removed from the analysis. We removed
                              4,306,138 claims during this step.

                      •	      No drug claims from Part D plans that were missing prescription
                              drug claims for entire months were analyzed. The PDE data
                              contained submissions for the first two quarters of calendar year
                              2006 from 547 Part D plans; however, this study retained claims
                              from only 528 Part D plans. Nineteen Part D plans were removed
                              because their PDE data submissions contained entire months in
                              which no prescription drugs were claimed. We removed
                              328,935 claims during this step.




    OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   24
A   P   P E N D       I X             ~           A                





                      Table 10: Types of Claims Removed From Generic Drug Utilization
                      Analysis


                                                                                                                         Total Claims     Percent of
                      Type of Claims Removed                                                                                Removed     Total Claims

                      Amended or deleted                                                                                   52,438,619          13%

                      Over-the-counter and supplemental drugs                                                               2,967,749            1%

                      Medical supplies                                                                                         19,555            0%

                      Prescriptions filled as multiple dispensing
                                                                                                                              175,999            0%
                      events
                      No drug product information                                                                           2,511,589            1%

                      Claims filed for beneficiaries to multiple Part D
                                                                                                                            4,306,138            1%
                      plans
                      Part D plans with missing submissions                                                                   328,935            0%

                      Total                                                                                                62,748,584          16%

                      Source: OIG analysis of January-June 2006 PDE data, 2007.




    OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N       IN THE   M E D I C A R E PA R T D P R O G R A M                            25
Δ   A P P E N D I X ~ B




          Table 11: Median Rates for Generic Drug Utilization Indicators by Types of
          Medicare Advantage Prescription Drug Plans
                                                                                                                         Median
                                                                           Median Generic                         Single-Source   Median Generic
                                                                         Drug Substitution                     Drug-Prescribing   Drug Utilization
          MA-PD Plan Type                                                            Rate                                  Rate              Rate

          1876 Cost Plan                                                                         90%                       33%               61%

          Continuing Care Retirement
                                                                                                 87%                       41%               51%
          Community
          Health Maintenance Organization
          (HMO)/HMO Point of Service                                                             90%                       32%               61%
          (HMOPOS)
          Local Preferred Provider
                                                                                                 87%                       36%               56%
          Organization (PPO)
          Program of All Inclusive Care for
                                                                                                 91%                       34%               59%
          the Elderly (PACE)
          Other*                                                                                 89%                       34%               60%

          Private Fee-for-Service (PFFS)                                                         87%                       35%               57%

          Provider Service Organization
                                                                                                 91%                       32%               62%
          (PSO)
          Regional PPO                                                                           87%                       37%               56%

          Social Health Maintenance
                                                                                                 90%                       27%               66%
          Organization (SHMO)
          * Includes End Stage Renal Disease, Massachusetts Health Senior Care Options, Minnesota Disability
          Health Options, Minnesota Senior Health Options, and Wisconsin Partnership Program plan types.

        Source: OIG analysis of January-June 2006 PDE data, 2007.



                       Refer to the following page for definitions of the types of Medicare
                       Advantage prescription drug plans.




OEI-05-07-00130        G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M                             26
A   P   P E N D       I X             ~           B


                      1876 Cost Plans: Cost plans are operated by HMOs or Competitive
                      Medical Plans in accordance with a cost reimbursement contract under
                      §1876(h) of the Social Security Act. Cost plans offer Part D but only as
                      an optional supplemental benefit.

                      Continuing Care Retirement Community: These plans allow seniors to
                      “age in place,” providing accommodations that are designed to meet
                      their health and housing needs as these change over time.

                      HMO/HMOPOS: A type of Medicare Advantage (MA) plan in which a
                      group of doctors, hospitals, and other health care providers agree to give
                      health care to Medicare beneficiaries for a set amount of money.
                      PPO: An MA plan in which beneficiaries use doctors, hospitals, and
                      providers that belong to the network. A local PPO has a service area
                      that is less than a region and that may consist of a county, partial
                      county, or multiple county service areas. Regional PPOs can be offered
                      only in an MA region within the 50 States and the District of Columbia.

                      PACE: PACE serves individuals who are age 55 or older, certified by
                      their State to need nursing home care, able to live safely in the
                      community at the time of enrollment, and live in a PACE service area.

                      PFFS: Beneficiaries may go to any Medicare-approved doctor or
                      hospital that accepts the plan’s payment. The insurance plan decides
                      how much it will pay and what beneficiaries pay for the services they
                      receive.

                      PSO: A private or public entity operated by a provider or group of
                      affiliated providers. These types of organizations provide a substantial
                      proportion of the health care services under the MA contract directly
                      through the provider or affiliated group of providers.

                      SHMO: An MA plan that expands coverage for community-based long
                      term care and is designed to keep functionally impaired older people
                      living at home.




    OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   27
Δ      A P P E N D I X ~ C


                  AGENCY COMMENTS




OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   28
A G   E N     C Y      C O            M M E N T                            S




 OEI-05-07-00130    G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   29
Δ   A C
      P P
        K EN NO DW I L X E ~ D D G M E N T S



                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas Komaniecki, Deputy Regional Inspector
                  General.

                  This report was led by Mark Stiglitz. Other principal Office of
                  Evaluation and Inspections staff from the Chicago regional office who
                  contributed include Meghan Kearns. Other principal central office staff
                  who contributed include Linda Abbott and Eddie Baker.




OEI-05-07-00130   G E N E R I C D R U G U T I L I Z AT I O N   IN THE   M E D I C A R E PA R T D P R O G R A M   30
